NO.

3fn tf)t
Supreme Court of ttjc Hmteti States

ulV&lalW

Susan Chen
Petitioner
v.

Kate Halamay and Allegro Pediatrics,
Respondents

On Petition for a Writ of Certiorari to
The Washington Supreme Court

filed
MAR 3 1 2021

PETITION FOR A WRIT OF CERTIORARI

Susan Chen, pro se petitioner
PO BOX 134
Redmond, WA 98073
Tel: (323)902-7038

RECEIVED
MAY 2 o 2021

iEgaiF<a^Lmi<

QUESTIONS PRESENTED
The Courts “have power to say what the law is,
not what it should be.” Obsergefell v. Hodges, 576 U.S.
644 (2015) (Roberts, J., joined by Scalia and Thomas,
dissenting).In interpreting a statue, the courts must
defer to “the intent of the legislature,” “until its
violation of the Constitution is proved beyond a
reasonable doubt.” Ogden v. Sauders, 25 U.S. 213
(1827).
Wash. Rev. Code. Ann. § 4.08.050 (“RCW
4.08.050”) is the statute at issue. RCW 4.08.050
mandates appointment of guardian ad litem for
minor plaintiff, without time constraint or legal
consequence for minors if no appointment is
requested. Here, through a judicially added deadline
requirement - which had been deliberately excluded
by the Legislature, Washington courts imposed a
dismissal with prejudice against a disabled minor,
J.L. for the alleged untimely request for appointment
of guardian ad litem by his pro se parent who speaks
English as her second language.
The dismissal with prejudice against minors
contravenes Washington courts’ own precedents, and
the decades-long practice of courts nationwide that
the appointment of the guardian ad litem was
“mandatory” and the court’s failure to make
appointment is a “reversible error” and the
erroneous judgment against him is “voidable at his
option”; and that non-attorney representation is
prohibited in both federal and state courts. See 28 U.
S. C. § 1654; RCW 2.48.180; State v. Yishmael, 195
Wn.2d 155, 456 P.3d 1172 (2020). The judiciallytailored and result-driven “Smith loses” in the
hypothetical pending case of Smith v. Jones had

11

deprived J.L.’s access to the Courts. Adopting
Respondents 1 position that allowing legal
representation for J.L. violates RCW 4.08.050, the
Washington Court of Appeals announced that the
pro se parent could act on minor’s behalf. It further
denied the appearance of a licensed counsel, Mr.
James Daugherty 2 on behalf of J.L, following the
previous refusal to appoint legal counsel.
1.

Whether the Washington courts erred concluding contrary to its own long-standing precedent and
established laws nationwide that RCW 4.08.050
authorizes a pro se parent to act on her child’s behalf.
Stated another way, the question is whether RCW
4.08.050 effectively deprives a minor's constitutional
right to counsel and effective representation as well
as his right to access the courts.

2. Whether judicially added time constraint is a
violation of separation of powers and an improper
encroachment to the legislative power.
3. Whether the court has authority over unrepresented
minor children who was not yet made party of the
case through the mandatory guardian ad litem and
legal counsel.

1 The lead appellate counsel for Respondents was a staff
attorney having been working with Washington state
Court of Appeals for over 15 years, and is currently the
Commissioner of that Court, with the short-period leave
from that court acting as Respondents’ counsel on this
matter.
2
Attorney, Mr. Daugherty submitted a separate petition
before this Court for minor, J.L. who was denied of the
constitutional rights to counsel. Petitioner respectfully
invites this Court to incorporate arguments in Mr.
Daugherty’s petition. No. 20-1504.

Ill

TABLES OF CONTENTS
QUESTIONS PRESENTED..

11

TABLES OF AUTHORITIES

Vll

OPINIONS BELOW,

1

JURISDICTION

1

STATUTORY PROVISIONI
INVOLVED......................

1

INTRODUCTION

2

STATEMENT OF THE CASE

6

REASONS FOR GRANTING THE
PETITION.............................................

12

I.

The Court Must Guard Against
12
Separation of Powers Violations.

II.

The Questions Presented
Exceptional Importance

III.

The Case is an Ideal Vehicle to Address
Unresolved Issues Concerning the
Separation of Powers, and Clarify When
Judiciary Has Infringed the Legislative
16
Power

IV.

The Washington Court Decision Creates
A Departure and Contravenes The
Decades-Long
Practice
of Courts
21
Nationwide

Are

Of
15

A. RCW 4.08.050 Provides No Basis For
Washington Courts To Deprive A

IV

Minor Of His Constitutional Rights to
21
Counsel
B. Absent Notice About Timeliness
Requirement And Legal Consequence,
Washington Courts’ Dismissal With
Prejudice Against A Disabled Minor
Is A Due Process Violation Under
This Court’s Decision In Rabe v.
25
Washington
C. Minor, J.L. Has Been Deprived Of
Individual Rights Which Structural
Separation Of Powers Principles Are
28
Designed to Safeguard
CONCLUSION

31

V

APPENDIX A:
Orders of the Washington Supreme Court, filed on
la
November 4, 2020
APPENDIX B:
Opinion of the Washington Court of Appeals filed on
3a
February 10, 2020
APPENDIX C:
Petitioner’s Motion for Reconsideration, filed at the
28a
trial court
APPENDIX D:
Petitioner’s Motion for Reconsideration, filed at
46a
Washington Court of Appeals
APPENDIX E:
Petitioner’s Opening Brief, filed at Washington
85a
Court of Appeals
APPENDIX F:
Petitioner’s Petition for review filed in Washington
170a
Supreme court
APPENDIX G:
Revised
Code
of
4.08.050.............................

Washington

(RCW)
198a

VI

TABLE OF AUTHORITIES
FEDERAL CASES
Baker v. Carr, 369 U.S. 186, 211 (1962).....

13

Bank Markazi v. Peterson, 136 S. Ct. 1310
(2016).................................................................

13,20

Bowsher v. Synar, 478 U.S. 714 (1986)

13, 20

Bond v. United States, 564 U.S. 211 (2011)14, 15, 28
Bond v. United States, 572 U.S.___(2014)

14

Bounds v. Smith, 430 U.S. 817 (1977)

30

Buckley v. Valeo, 424 U.S. 1, 122 (1976)

13

Cheung v. Youth Orchestra Found of Buffalo, Inc.,
906 F.2d 59, 61 (2d Cir. 1990)
21
City of Boerne u. Flores,
521 U.S. 507, 535, 536(1997)

2

City of Arlington v. FCC, 133 S.Ct. 1863 (2013)....31
Clinton v. City of New York,
524 U.S. 417 (1998)....
Cipollone v. Liggett Group, Inc.,
505 U.S. 504 (1992).........
Collins v. Harker Heights,
503 U.S. 115, 125 (1992)
Day-Brite Lighting, Inc., v. Missouri,
342 U.S. 421, 423 (1952)..............

13, 29

24

15, 31

16

Vll

Devine v. Indian River County Sch. Bd., 121 F.3d
576, 578, 582 (11th Cir. 1997), cert, denied............ 21
24

Faretta v. California, 422 U.S. 806 (1975)

Ferguson v. Skrupa, 372 U.S. 726, 730 (1963)...2, 16
Freytag v. Commissioner of International Revenue,
2, 13, 20
501 U.S. 868 (1991)
Godinez v. Moran, 509 U.S. 389, 403 (1993)

24

Graham-Humphresys v. Memphis Brooks Museum
22
of Art, Inc., 209 F.3d 552, 561 (6th cir. 2000)
INS v. Chadha, 462 U.S. 919 (1983)
Johns v. County of San Diego,
114 F.3d 874, 876-77 (9th Cir. 1997)

20

21, 23

Loving v. United States, 517 U.S. 748 (1996)....13,20
Meeker v. Kercher,
782 F.2d 153, 154 (10th Cir 1986)

21

Metropolitan Washington Airports Authority v.
Citizens for the Abatement of Aircraft Noise, Inc.,
501 U.S. 252,272(1991)....................................... 13
McNeil v. United States,
508 U.S. 106, 113(1993)

22

Miller v. French, 530 U.S. 327 (2000)

13

Mistretta v. United States, 488 U.S.361 (1989) ....13
Morrison v. Olson, 487 U.S. 654 (1988)

13, 20, 31

Vlll

Mullane v. Central Hanover Bank & Trust Co.,
339 U.S. 306, 313 (1950).........................

30

Myers v. Loudon County Pub. Schs.,
418 F.3d 395401 (4^ Cir. 2005)..

21

Myers v. United States, 272 U.S. 52 (1926)

14

Nixon v. Administrator of General Services,
433 U.S. 425 (1977)..................................

13,20

Northern Pipeline Constr. Co. v. Marathon Pipe
14, 20
Line Co., 458 U.S. 50 (1982)
Obergefell v. Hodges,
576 U.S. 644 (2015)

2, 14, 16, 29

NLRB v. Noel Canning,
134 S. Ct. 2550, 2617 (2014)
O’Diah v. Volkswagen of Am., Inc.,
91 Fed. Appx. 159, 160 (1st Cir. 2004)

20, 29

21

Osei-Afriyie v. Med. Coll. Of Pennsylvania,
937 F.2d 876, 882 (3d Cir. 1991)..........

21, 23

Patchak v. Zinke, 583 U.S.__(2018)

18, 20

Plaut v. Spendthrift Farm, Inc.,
514 U.S. 211, 219 (1995).....

15, 20,29

Rabe v. Washington, 405 U.S. 313 (1972)

25, 28

Robertson v. Seattle Audubon Society,
503 U.S. 429 (1992)........................

13,20

Rewis v. United States, 401 U.S. 808, 812 (1971)..26

IX

Russello v. United States, 464 U.S. 16, 23, 104 S. Ct.
4
296, 78 L.Ed. 2d 17 (1983)
Shepherd v. Wellman,
313 F.3d 963, 970 (6th Cir. 2002)

21

Smith v. Smith,
49 Fed. Appx. 618, 620 (7th Cir. 2002)

21

Stern v. Marshall, 564 U.S. 462 (2011)

4

United States v. Klein, 13 Wall. 128 (1871)

20

United States v. Am. Trucking Ass’ns, Inc.,
310 U.S. 534, 542 (1940).....................

16

United States v. Windsor, 570 U.S. 744 (2013)...... 14
Williamson v. Lee Optical of Okla., Inc.,
348 U.S. 483, 488 (1955).................
Winkelman v. Parma City School District,
550 U.S. 516 (2007)..............................

16

5

WASHINGTON STATE CASES
Hagan u. Kassler Escrow, Inc.,
96 Wn.2d 443, 635 P.2d 730 (1981)

21

In re Juvenile Director,
87 Wn.2d 232 552 P.2d 163 (1976)

2

In re Dependency of E.M.,
12 Wn.App. 2d 510, 458 P.3d 810(2020)...... 11, 19
Newell v. Ayers,
23 Wn.App. 767, 598 P.2d 3 (1979)

10

X

Shelly v. Elfstrom,
13 Wn.App. 887, 538 P.2d 149(1975)

26

State v. Yishmael,
195 Wn.2d 155, 456 P.3d 1172 (2020)

ii, 22

Wash. State Bar Assn. v. Great W. Union Fed. Sau.
21
& Loan Assn., 91 Wn.2d 48, 586 P.2d (1978)
OTHER AUTHORITIES
The Federalist No. 51, P. 349 (J. Cooke ed. 1961). 13
The Federalist No. 47

2,15

The Federalist No. 78, Montesuieu, The Spirit of
the Laws 157 (A Cohler, B Miller & H. Stones eds.
3, 15, 17, 29
1989)
Judge Diane Wood, The Rule of Law in Times of
18, 28
Stress (2003)
STATUTES
28 U.S. C. & 1654

1, 5,18, 22

RCW 2.48.180

5, 18, 22

RCW 4.08.050

passim

Washington Court General Rule 33
Americans with Disabilities Act of 1990

9
8,9

1
PETITION FOR A WRIT OF CERTIORARI
Susan Chen respectfully petitions for a writ of
certiorari to review orders from the Washington
Supreme Court.
OPINIONS BELOW
On November 4, 2020, the Washington Supreme
court entered orders denying: (1) motion for
discretionary review of order denying appearance of
a licensed attorney, Mr. James Daugherty on behalf
of minor, J.L.; (2) motion for permission for licensed
lawyer, Mr. James Daugherty to File Briefs on
Behalf of Minor, J.L; and (3) petition for review of
dismissal with prejudice against disabled minor,
J.L.. The orders are attached as APP. A at la-2a.
JURISDICTION
On March 19, 2020, this Court extended the
deadline to file a petition for certiorari to 150 days.
This Court has jurisdiction under 28 U.S.C. §1257(a).
CONSTITUTIONAL PROVISION INVOLVED
The Fourteenth Amendment to the U.S.
Constitution provides, in relevant part:
No State shall * * * deprive any person of life, liberty,
or property, without due process of law.
FEDERAL STATUE INVOLVED
28 U. S. C. § 1654 provides, “In all courts of the
United States the parties may plead and conduct
their own cases personally or by counsel.”

2
INTRODUCTION
“The leading Framers of our Constitution viewed
the principle of separation of powers as the central
guarantee of a just government.” Freytag v.
Commissioner of Internal Revenue, 501 U.S. 868, 870
(1991). “Our national experience teaches that the
Constitution is preserved best when each part of the
Government respects both the Constitution and the
proper actions and determinations of the other
branches.” City of Boerne v. Flores, 521 U.S. 507,
535-36 (1997).
As James Madison put it, “[w]ere the
judging joined with the legislative, the
liberty of the subject would be exposed to
control.” The Federalist No. 47, at 303
Montesquieu, The Spirit of the Laws).

power of
life and
arbitrary
(citing 1

The Court’s duty is to interpret and apply laws,
“not [to] substitute their social and economic beliefs
for the judgment of legislative bodies, who are
elected to pass laws.” Ferguson v. Skrupa, 372 U.S.
726, 730 (1963). “Under the Constitution, judges
have power to say what the law is, not what it should
be.” Obergefell v. Hodges, 576 U.S. 644 (2015)
(Roberts, J., joined by Scalia and Thomas, dissenting)
(emphasis added). Washington state recognizes that
the “courts must limit their incursions into the
legislative realm in deference to the separation of
powers doctrine.” In Re Juvenile Director, 87 Wn.2d
232 552 P.2d 163 (1976). When the Court elects to
“exercise WILL instead of JUDGMENT, the
consequence would be equally be the substitution of
their pleasure to that of the legislative body.”

,

3
Alexander Hamilton, Federalist No.
Federalist Papers (emphasis in original).

78,

The

The law at issue is Wash. Rev. Code. Ann. §
4.08.050 (1) (“RCW 4.08.050”), a guardian ad litem
statute. App. G. at 198a-200a. This Petition concerns
whether the Washington courts’ decision was an
improper intrusion to the legislative powers.
RCW 4.08.050 imposes mandatory duty of
appointing guardian ad litem for the minor plaintiff,
in which no deadline was required (while “thirty
days” requirements were imposed to minor
defendant) or any legal consequence imposed even if
the guardian failed to make such requests.
The issue of lacking guardian ad litem was
repeatedly pled by parent, i.e., in Motion for
Reconsideration, Motion to Vacate and on appeal before two trial judges and appellate panel but was
unaddressed. Rather, the appellate court opined that
“the court was [not] obliged” to make such
appointment. App. B at 23a.
The Courts are not afforded authority to alter
laws (through adding or reducing words) made by
the legislative body. Here, through judicially added
requirements for both time constraint and legal
consequence of RCW 4.08.050 (1), the Washington
Court of appeals affirmed a dismissal with prejudice
against a six-year-old disabled minor. In recognition
of its mandatory duty (Opinion, App B at 23a), the
court stated that the request for appointment should
be made “before the court entered the order
granting [pre-discovery] summary judgment”,
(emphasis added). Id. (“[W]here Congress includes
particular language in one section of a statute but
omits it in another section of the same Act, it is

4
generally presumed that Congress acts intentionally
and purposely in the disparate inclusion or
exclusion.” Russello v. United States, 464 U.S. 16, 23,
104 S. Ct. 296, 78 L. Ed. 2d 17 (1983))”). Here, the
Legislature imposes “thirty days” requirement for an
infant “defendant” in RCW 4.08.050 (2) but not for
an infant “plaintiff’ in RCW 4.08.050 (1).
Even the untimely allegation was true (which
was denied), RCW 4.08.050 provides the Court no
authority to sanction minor, J.L. with a dismissal
with prejudice for the alleged untimely request made
by his mother through judicially added timeliness to
the statute- that were intentionally left out by the
legislature for minor plaintiff.
Further, RCW 4.080.050 specially requires
appointments when parents are found to be
“improper”. The Court of Appeals found J.L.’s mother
to have improperly handled the case that a pro se did
not timely ask for discovery, Id, at 22 a, 26a, it did
not appoint guardian ad litem for J.L. but further
denied the appearance of a private attorney on J.L.’s
behalf after Respondents argued that RCW 4.08.050
prevented J.L. from having legal counsel. No
language in RCW 4.08.050 prohibited J.L. having
legal counsel, but Respondents claimed that RCW
4.08.050 had effectively prohibited J.L. from having
an attorney, which was adopted by the court who
denied Mr. Daugherty’s appearance.
Any “slight
encroachments create
new
boundaries from which legions of power can seek new
territory to capture.” Stern v. Marshall, 564 U.S. 462
(2011). The Court should grant this Petition to
address the exceptionally important separation of
powers issues presented and clarify aspects of

5
boundary between the legislative and judicial powers
not raised and addressed by the Court’s prior
decisions. See SUP. CT. R. 10 (c).
Non-lawyer representation is prohibited in both
federal and state courts. 28 U. S. C. § 1654; RCW
2.48.180. Indeed, all circuits to address the questions
subscribe to this rule. When confronting with lay
parent representation, all circuits entered a
dismissal without prejudice, permitting the children
to later refile their claims with the assistance of a
competent counsel. Here, relying upon RCW 4.08.50,
Washington courts entered and affirmed a dismissal
with prejudice against a minor who was purported to
be represented by a pro se parent, announcing a new
rule of lay parents’ representation, contravenes the
decades-long practice of courts nationwide. See SUP.
CT. R 10 '(b).
Children’s rights are paramount. They are
entitled to adequate representation.3 A dismissal
with prejudice against minor children itself is
unconstitutional. The Court should grant this
Petition to address the exceptionally important and
recurring issues and clarify that children’s rights to
legal representation could not be deprived by a state
law, which is of such imperative public importance.4

3 Lay parent representation has been a recurring issue
before this Court, e.g., Winkelman v. Parma City School
District, 550 U.S. 516 (2007) where this issue was not yet
resolved.
4 This is not a single event. In. Re E.M. 12 Wn.App. 2d
510, 458 P.3d 810(2020) was seeking review before the
Washington supreme court on whether another state law
could prohibit a minor child from having a legal counsel.

6
STATEMENT OF THE CASE
A. Facts Giving Rise to This Case.
J.L. saw Respondent Dr. Kate Halamay
(“Halamay”) in urgent care for three occasions.
Without reviewing his medical history or consulting
with the main treating physician, Halamay claimed
J.L. having “life-threatening” kidney failure such
that he needed to be urgently removed subsequently after this (mis)diagnosis, J.L. was
removed to ER, but the only medication given at ER
was “bisacodyl” (a medication for constipation).
Halamay later admitted to Attorney Ms. Twyla
Carter in deposition that J.L’s kidney was actually
“normal.”
Halamay misstated multiple knowingly false
facts to other providers including but not limited to
Dr. Hal Quinn, the detective and child protective
service (“CPS”), resulting in one-year wrongful
removal to J.L. and false arrest and prosecution
against J.L.’s mother, Susan Chen (“Chen”).
Washington King County Juvenile Court found
“outrageous” for the medical conclusions absent
adequate review a child’s medical records and
history, and consultation with the child’s main
treating physicians.
Finding that the CPS referral made by Halamay
was “contrary to” the truth, Washington State Office
of Attorney General and King County Prosecutors
moved to dismiss the wrongful dependency and
criminal cases. Criminal charges were dismissed “in
the interest of justice” and “due to the evidence

7
discovered after filing [which had been withheld by
Halamay, police officer and others].”
The consequences for Susan Chen and her minor
child, J.L. was tragic. Due to the one-year removal,
interruption, and denial of his therapy, withheld
medications and treatment, J.L. lost all the abilities
he previously had and cannot regain the skills. At
age 10, he cannot speak, and scream uncontrollably,
sometime for hours, at any actual or possible
separation from his family. These conditions were
not present before he was falsely seized. Chen was
falsely arrested, jailed and prosecuted.
Halamay s negligence was true. All the damages
done to Chen and J.L. were real. J.L. did nothing
wrong but had been harmed and will carry on all the
pains and damages to the end of his life. It is unfair
for him to be declined his every right to have his
claims fully reviewed by the Court.
Whether or not J.L. will eventually prove his case
should be left to the jury, Petitioner will not go into
details here.5 Fundamentally, J.L. is entitled to his
day in court with the assistance of a competent
counsel but had been unfairly deprived of such right.
B. The State Superior Court Proceedings
On October 24, 2013, Chen pro se sued Halamay
and Allegro Pediatrics in Court for her below-thestandard care and medical malpractice.
On December 8, 2013, Halamay moved for a
pre-discovery summary judgment, relying upon a
5 The Opinion below did not include all facts. This Court is
invited to review facts in 48-53a, 64-79a, 108-118a.

8
selective medical record, mostly written by herself.
In response to summary judgment, Chen requested
to amend the complaint dismissing J.L. whose name
was mistakenly added because she ‘cannot represent
children’ as non-attorney parents. See, Clerk’s
Papers (“CP”) 210, 282 & 285. This occurred three (3)
months before Order granting summary judgment
was entered. Before any discovery was conducted
and without addressing the raised issue, the court
entered a dismissal with prejudice. Chen moved for
reconsideration, arguing that absence of guardian ad
litem renders the action null and non-attorney
parents cannot represent minors in court.
Specifically,
Due to failure to appoint a Guardian ad
Litem (“GAL”) to bring the action, the action
on behalf of the minors was a nullity, and
there was no action on behalf of minors for
judicial consideration, and therefore no
action to dismiss.
In this case, the Court failed to give
consideration to the additional factor unique
to the context of the case, i.e., L.L. and J.L.’s
minority status and J.L.’s disabilities.
American Disability Act (ADA) of 1990 and
Rehabilitation Act protect the disabled’s
rights to fundamental fairness. J.L.’s
constitution rights of access to the Court
cannot be denied due to his inability to
understand the legal proceedings without
the assistance of counsel and before reaching
majority. Dismissing minor’s claims with
prejudice violates the due process and equal
protection guarantees of the Federal and
state Constitutions.

9

In her initial response to summary
judgment, the mother requested to amend
the complaint dismissing her children when
told that she ‘cannot represent children’ as
non-attorney parents.
See App. C, at 29 a & 34 a.
The court denied reconsideration without
addressing the raised issues about lacking GAL and
legal representation.
Chen later obtained J.L.’s medical record
through a related federal action and learned that
Halamay’s summary judgment was obtained
through significant withholds - the withheld 135pages critical medical records were authored by
other providers. The selective medical records
submitted were mostly authored by Halamay
herself.
Relying upon ADA and Washington State
General Rules (“GR”) 33 (reasonable accommodation
for disabilities), Chen requested the trial court to
appoint counsel for J.L. to assist in vacating the
summary judgment. The chief Judge Schubert
appointed GAL who submitted two reports,
suggesting appointment of counsel as “in the best
interests of the children”. Judge Schubert discharged
GAL and appointed counsel for the limited purpose
of drafting the reply to the motion to vacate.
The motion to vacate was based on the newly
discovered evidence that had been withheld by
Respondents, and the court’s failure to comply with

10
guardian ad litem statute (CP 654-656) and minors
‘constitutional rights of being represented by
competent counsel (CP 656-658). Judge Parisien
heard the motion. After identifying personal conflict
of interests with the witness Dr. Quinn, Judge
Parisien denied the motion in 10 minutes, did not
address the raised issue of the absence of GAL (CP
1547). Chen moved for reconsideration, arguing
Local Civil Rule 60 provides that only chief judge
had authority to hear motion to vacate, as well as the
unaddressed GAL issue, which was denied.
C. The State Appellate Court Proceedings
On appeal, Chen again challenged trial court’s
repeated failure to comply with guardian ad litem
statute. Chen wrote,
[i]n Newell v. Ayers, Division Three held that
when lacking guardian ad litem, judgment
against minors may be voidable at his option.
See Appellate Brief, App. E at 131a, 155a.
On February 10, 2020, Court of Appeals,
Division One 6 entered an opinion, affirming a
dismissal, finding Chen to have improperly handled
the case, e.g., App B, at 22 a & 26a, but opined that
the court was not obliged to appoint GAL for J.L.
before Chen did not do so before an order granting
summary judgment was entered. Id, at 23a.

6 Hamamay’s counsel, Ms. Jennifer Koh had been a staff
attorney for Division One from November 2001 to
December 2015. She acted as Halamay’s counsel from
June 2017 to February 18, 2020, filed Response brief. Ms.
Koh is now the Commissioner of Division One.

11
On February 24, 2020, Court of Appeals held
in a different case that “only legal counsel can
advocate for the legal rights and interests of a child.”
See In re Dependency of E.M, 12 Wn. App. 2d 510,
458 P.3d 810 (2020). On February 28, relying in part
on E.M. issued four days earlier, Chen moved for
reconsideration on multiple grounds, and specifically
challenged that through affirming a dismissal with
prejudice, Court of Appeals improperly granted pro
se parents privilege of “unauthorized practice of
law”, which was inconsistent with both federal and
state laws, in particular, its new holding in E.M.
Chen articulated, “[s]ince the parents were legally
not allowed to represent their minor children, J.L.
and L.L. were never before the court, and should not
be bound by the judgment.” App. D, at 48 a & 60a.
Chen thus requested, “at minimum, any dismissal as
to the children should be ‘without prejudice.”’ Chen
also contested that ‘[dismissing the minors’ claims
with prejudice without ensuring that they receive
meaningful notice [through appointment of guardian
ad litem] violates the children’s due process rights.”
Id, at 56a.
On March 3, Washington licensed attorney, Mr.
James Daugherty sought the court’s permission to
appear on J.L.’s behalf on a pro bono basis.
Respondents
objected
to
Mr.
Daugherty’s
appearance by stating:
Allowing that appearance would violate
RCW 4.08.050, which requires that J.L.
appear by guardian. To allow Mr. Daugherty
to appear for J.L. would require this Court to
effectively rewrite the statute to allow
infants to appear “by guardian or by

12
counsel.” But, any such a rewrite is a matter
for the legislature, not this Court.
Adopting Respondent’s position that RCW
4.08.050 prevents minor, J.L. from having a lawyer,
Court of Appeals then denied Chen’s motion for
reconsideration,
and subsequently denied Mr.
Daugherty’s appearance. Both Chen and Mr.
Daugherty sought review for both order denying Mr.
Daugherty’s appearance (#98503-1) and opinion
affirming dismissal with prejudice in the State
Supreme Court (#98368-2).
D. The State Supreme Court Proceedings
The 9th Circuit appointed pro bono counsel for
both J.L. and L.L. in federal court. Chen provided a
copy of order to the court and sought permission for
Mr. Daugherty to file brief for J.L.
On November 4, 2020, the Washington State
Supreme Court entered three orders: (1) refusing to
review the lower courts’ dismissal with prejudice; (2)
denying licensed counsel, Mr.
Daugherty’s
appearance for J.L, and (3) denying motion to permit
Mr. Daugherty to file brief for J.L. Thus far,
petitioner had exhausted all the remedies at the
state courts level.
REASONS FOR GRANTING THE PETITION
I. The Court Must Guard Against Violations of
the Separation of Powers Doctrine.
“Deciding whether a matter has in any measure
been committed by the Constitution to another
branch of government, or whether the action of that
branch exceeds whatever authority has been

13
committed... is a responsibility of this Court as
ultimate interpreter of the Constitution.” Baker u.
Carr, 369 U.S. 186, 211 (1962).
Consistent with this “responsibility to enforce
the [separation of powers] principle when
necessary,” Metropolitan Washington Airports
Authority v. Citizens for the Abatement of Aircraft
Noise, Inc., 501 U.S. 252, 272 (1991), this Court’s
vital function as guardian of separation of powers
safeguards and principles includes reviewing and
deciding cases raising serious separation of powers
questions - even if the Court ultimately concludes no
violation has occurred. See, e.g., Bank Markazi v.
Peterson, 136 S. Ct. 1310 (2016); Miller v. French,
530 U.S. 327 (2000); Loving v. United States, 517
U.S. 748 (1996); Robertson v. Seattle Audubon
Freytag v.
Society, 503 U.S. 429 (1992);
Commissioner of Internal Revenue, 501 U.S. 868
(1991); Mistretta v. United States, 488 U.S. 361
(1989); Morrison v. Olson, 487 U.S. 654 (1988); Nixon
v. Administrator of General Services, 433 U.S. 425
(1977); Clinton v. City of New York, 524 U.S. 417
(1998).
The principal function of the Separation of
Powers, which is to maintain the tripartite structure
of the government - and thereby protect individual
liberty-by providing a "safeguard against the
encroachment or aggrandizement of one branch at
the expense of the other." Buckley v . Valeo , 424 U.S.
1, 122 (1976) (per curiam); See The Federalist No. 51,
p. 349 (J. Cooke ed. 1961) (J. Madison) (separation of
powers confers on each branch the means "to resist
encroachments of the others"); See also Bowsher v.
Synar, 478 U.S. 714 (1986) (invalidating
congressional intrusion on Executive Branch);

14
Northern Pipeline Constr. Co. v. Marathon Pipe Line
Co., 458 U.S. 50 (1982) (Congress may not give away
Article III "judicial" power to an Article I judge);
Myers v. United States, 272 U.S. 52 (1926) (Congress
cannot limit President's power to remove Executive
Branch official).
“Separation-of-powers principles are intended,
in part, to protect each branch of government from
incursion by the others." Bond v. United States, 564
U.S. 211 (2011). For these years, this Court has
expressed its concerns over the potential judicial
intrusion over the boundary provided by the
separation-of-powers doctrine, e.g., United States v.
Windsor, 570 U.S. 744 (2013) (Scalia, J., dissenting);
Obergefell v. Hodges, 576, U.S. 644 (2015) (Roberts,
J.„ joined by Scalia and Thomas, dissenting) (stating
that adding judicial preference to a law and
interfering
with
is
legislative
powers
“disheartening”).
Due Process affords one’s right to an impartial
tribunal who will decide the case according to laws
that are applied predictably and uniformly. This
Court has been mindful that the “court is not a
legislature”. Id. Therefore, the court’s job is “not to
rewrite”, but “to interpret words fairly, in light of
their statutory context.” Bond v. United States, 572
U.S.__(2014) (Scalia, J., joined by Thomas and Alito,
concurring in judgment) (emphasis added).
Here, the Washington courts, in indirectly
adding languages to a law tailed to J.L.’s suit, have
unfairly pronounced a result-driven rule of “Smith
loses” in the hypothetical pending case of Smith v.
Jones. This Court should grant for review, and
clarify the bounds of judicial reading of statute, to

15
prevent any boundless reading, as here, could
constitute a violation of constitutional rights.
II. The Questions Presented Are Of Exceptional
Importance.
“The Framers of our Constitution lived among
the ruins of a system of intermingled legislative and
judicial powers.” Plaut v. Spendtthrift Farm, Inc.,
514 U.S. 211, 219 (1995). Given the “disarray” the
Framers of our Constitution took an innovative step
of creating an independent judiciary which “protects
the liberty of the individual from arbitrary power.”
Bond v. United States, 564 U.S. 211, 223 (2011).
“When government acts in excess of its lawful
powers, that liberty is at stake.” Id. As James
Madison put it, “[w]here the power of judging joined
with the legislative, the life and liberty of the subject
would be exposed to arbitrary control.” The
Federalist No. 47, at 303 (citing Montesquieu, The
Spirit of the Law).
To maintain judicial independence, the need for
“judicial self-restraint” is needed. Collins v. Harker
Heights, 503 U.S. 115, 125 (1992). The judiciary
should resist the political influence, prohibiting
encroaching on the legislature, and avoid imposing
its will or preference upon laws. Otherwise, “there is
no liberty if the power of judging be not separated
from the legislative and executive powers.” The
Federalist No. 78, P. 466. Montesquieu, The Spirit of
the Laws 157 (A Cohler, B Miller, & H. Stones eds.
1989).
For a number of years, the courts have been
mindful of the boundary between the legislature and
the judiciary. “[Cjourts do not substitute their social

16
and economici beliefs for the judgment of legislative
bodies, who are elected to pass laws.” Ferguson u.
Skrupa, 372 U.S. 726, 730 (1963). “[Courts] do not sit
as a super-legislature to weigh the wisdom of
legislation” Day-Brite Lighting, Inc., v. Missouri, 342
U.S. 421, 423 (1952). In a 2015 case, three justices of
this Court concerned that the judiciary’s interference
with legislative definition of marriage is “an act of
will, not legal judgment.” Obergefell v. Hodges, 576
U.S. 644 (2015) (Roberts, J., joined by Scalia and
Thomas, dissenting). The lawmaking decision
“should rest within the people acting through their
elected representatives.” Id. The Courts should avoid
“converting personal preference” to the laws. Id.
In interpreting a statue, the courts must defer
to “the intent of the legislature.” United States v. Am.
Trucking Ass’ns, Inc., 310 U.S. 534, 542 (1940).
Justice Washington stated, “It is but a decent respect
to the wisdom, integrity, and patriotism of the
legislative body, by which any law is passed, to
presume in favor of its validity, until its violation of
the Constitution is proved beyond a reasonable
doubt.” Ogden v. Sanders, 25 U.S. 213 (1827). Thus,
the Court will not hold laws unconstitutional simply
because finding them “unwise, improvident, or out of
harmony with a particular school of thought,”
Williamson v. Lee Optical ofOkla., Inc., 348 U.S. 483,
488 (1955).
III. The Case is an Ideal Vehicle to Address
Unresolved Issues Concerning the Separation
of Powers and Clarify When Judiciary Has
Infringed the Legislative Power.
The selective and unpredictive “Smith loses”
Decision here is an unprecedent intrusion on the

17
the
legislative
power.
Petitioner
contends
Washington courts’ decision itself is unconstitutional
for the dramatic legal sanction unfairly upon a
disabled minor who was not represented by the lawrequired guardian ad litem, nor the private lawyer
who was willing to advocate for him on a pro bono
basis.
The laws should not be selective. For over half a
century, Washington courts had decided in a series
of cases that appointment of guardian ad litem is
“mandatory” (AppE, at 155a), the court’s failure to
make the appointment “will be a reversible error” (Id)
and the judgment against the minor “may be
voidable at his option” (Id, at 154a). In A.G., the
Washington Court held,
“The [guardian ad litem] statute is
mandatory, and the children’s interests are
paramount. We cannot condone ignoring the
statutory provision specifically designed to
protect them.”
See App E. at 154a (emphasis in original)
The court’s duty is to exercise “neither force nor
will but merely judgment.” The Federalist No. 78 (A.
Hamilton). Whether “Smith wins” or “Smith loses”
should be strictly based on laws, not due to judicial
preference. The fundamental principle is that
everyone should be treated equally, and in the same
way. But here, the Court of Appeals claimed that the
court is not obliged to appoint guardian ad litem for
J.L. App. B, at 23a. The selective “J.L. loses” is an
indication of placing preference over laws.

18
The laws must be consistent and predictive. As
Judge Diane Wood pointed out, “neither laws nor the
procedures used to create or implement them should
be secret; and ... the laws must not be arbitrary.”
Judge Diane Wood, The Rule of Law in Times of
Stress, 2003. While Washington case laws requires
appointment of guardian ad litem and never imposes
sanctions on minors with a dismissal with prejudice.
While the laws are clear that pro se parents cannot
represent minors in both federal and state courts, 28
U. S. C. § 1654; RCW 2.48.180. Even if Washington
Court of Appeals made the same determination days
prior in another case in E.M. that minor’s legal
interest must be represented by legal counsel, J.L.
was denied his rights to legal representation by
adding words to RCW 4.08.050.
While the court did not directly change the
wording of the statute, which it did not have the
power to do, it indirectly added words that were not
originally in the law, changing the meaning of the
statute, and then based its decision on those
changes. That sort of judicial intervention
constitutes an exercise of the legislative power
because the judicial interpretation per se altered the
laws. Any improper encroachment, whether
“directly” or “indirectly”, is prohibited. Patchak v.
Zinke, 583 U.S.__(2018) (Roberts, J. joined by Scalia
and Thomas, dissenting).
The Court’s duty is to ascertain the legislative
intent. It cannot rewrite the laws, reduces or adds
words. Bond. Here, Wahington courts of Appeal
added time constraint on seeking appointment of
guardian ad litem, and further imposed “dismissal
with prejudice” to a minor - the judicially amended
statute, the decision and the circumstances giving

19
rise to it unquestionably test the limits of judicial
authority to act without intruding upon the
legislative power. This case presents an important
opportunity for the Court to clarify the boundaries of
that authority. See SUP. CT. R. 10 (c).
Washington courts have a history of adding words
to statutory interpretation, e.g., In re Dependency of
E.M., Here, the issue is whether the courts could add
time constraint and dismissal with prejudice to the
statue, targeting the dismissal of a minor’s claim
that had never been addressed well before the
statute of limitations was to run.
The Court is not a legislature. Whether “Smith
wins” or “Smith loses” should be decided by laws, not
by judicial preference. By adding the legislatureomitted
time
constraint
and
legislatureunauthorized legal consequence through judicial
interpretation, a disabled minor’s constitutional
access rights were fully denied by Washington courts.
That this case concerns multiple decisions in a
single case, all targeted at denying a disabled
minor’s rights to access to the courts, makes it
critically important for this court to grant the
Petition. - Any “[s]light encroachment create new
boundaries from which legion of power can seek new
territory to capture”. Stern, 564 U.S., at 502-503.
“We cannot compromise the integrity of the system
of separated powers... even with respect to
challenges that may seem innocuous at first blush.”
Id. at 503. This was not a “slight encroachment”, but
the flat-out denial of a disabled minor’s right to
adequate representation.

20
“It is not every day that [the Court] encounters]
a proper case or controversy requiring interpretation
of the Constitution’s structural provisions. Most of
the time, the interpretation of those provisions is left
to the political branches - which, in deciding how
much respect to afford the constitutional text, often
take their cues from this Court. [The Court] should
therefore take every opportunity to affirm the
primacy of the Constitution’s enduring principles
over the politics of the moment.” NLRB v. Noel
Canning, 134 S. Ct. 2550, 2617 (2014) (Scalia, J.
concurring).
“The hydraulic pressure inherent within each of
the separate Branches to exceed the outer limits of
its power, even to accomplish desirable objectives,
must be resisted.” INS v. Chadha, 462 U.S. 919
(1983). “[P] dicing the ‘enduring structure’ of
constitutional government when the political
branches fail to do so is ‘one of the most vital
functions of this Court.” Noel Canning, 134 S. Ct. at
2593 (Scalia, J., concurring) (citing Public Citizen v.
Department of Justice, 491 U.S. 440, 468 (1989)
(Kennedy, J., concurring in judgment).
Recognizing the importance of maintain the
separation of powers, this Court has granted review
in numerous cases without the presence of
conflicting lower court decisions, e.g., Bank Markazi,
136 S. Ct. 1310; Stern, 564 U.S. 462; Loving, 517 U.S.,
748; Plaut, 514 U.S. 211; Robertson, 503 U.S. 429;
Freytag, 501 U.S. 868; Morrison, 487 U.S. 654;
Bowsher, 478 U.S. 714; Chadha, 462, U. S. 919;
Northern Pipeline, 458 U.S. 50; Nixon, 433 U.S. 425;
United States v. Klein, 13 Wall, 128 (1871); Patchak
v. Zinke, 583 U.S.__(2018). Here, however, there is
a conflict.

21
IV. The Washington Courts’ Decision Creates A
Departure and Contravenes the Decades-Long
Practice of Courts Nationwide.
A. RCW 4.08.050 Provides No Basis For the Courts
To Deprive A Disabled Minor Of His
Constitutional Rights To Counsel.
All circuit courts across the county prohibit a
non-attorney from representing on others’ behalf,
with no exemption for pro se parents. Indeed, all
circuits to address the question subscribe to this rule.
See O’Diah v. Volkswagen of Am., Inc., 91 Fed. Appx.
159, 160 (1st Cir. 2004); Cheung v. Youth Orchestra
Found. Of Buffalo, Inc., 906 F.2d 59,61 (2d Cir. 1990);
Osei-Afriyie v. Med. Coll. Of Pennsylvania, 937 F.2d
876, 882 (3d Cir. 1991); Myers v. Loudon County Pub.
Schs., 418 F,3d 395, 401 (4th Cir. 2005); Shepherd v.
Wellman, 313 F.3d 963, 970 (6‘h Cir. 2002); Smith v.
Smith, 49 Fed. Appx. 618, 620 (7th Cir. 2002); Johns
v. County of San Diego, 114 F.3d 874, 876-77 (9th Cir.
1997); Meeker v. Kercher, 782 F.2d 153, 154 (10th Cir.
1986); Devine v. Indian River County Sch. Bd., 121
F.3d 576, 578, 582 (11th Cir. 1997), cert, denied, 522
(U.S. 1110(1998).
Washington courts have decades-long history
of rejecting non-attorney representation. Wash.
State Bar Assn. v. Great W. Union Fed. Sav. & Loan
Assn., 91 Wn.2d 48, 586 P.2d (1978) (“The ‘pro se’
exceptions are quite limited and apply only if the
layperson is acting solely on his own behalf”)
(emphasis in original); Also Hagan v. Kassler
Escrow, Inc., 96 Wn.2d 443, 635 P.2d 730 (1981) (“In
passing RCW 19.62, allowing lay persons to practice
law, the legislature imprecisely usurped the courts’

22
power. Accordingly, RCW 19.62 is unconstitutionally
as a violation of the separation of powers doctrine.”).
The common law ban on lay parent
representation comports with 28 U.S.C. § 1654,
which provides that “In all courts of the United
States the parties may plead and conduct their own
cases personally or by counsel...” Non-attorney
representation is a crime in Washington. RCW
2.48.180. State v. Yishmael, 195 Wn.2d 155, 456 P.3d
1172 (2020).
The common law rule furthers several important
policy objectives. Pro se representation carries with
it risks that are not present, compared to parties
represented by counsel. McNeil v. United States, 508
U.S. 106, 113 (1993) (a litigant without counsel could
make “a fatal procedural error”). This case
illustrates the point. In its Opinion, the Court of
Appeals admonished Chen’s incompetency, e.g.,
“Chen made no discovery requests 7 before the court
granted
summary judgment
dismissal... The
defendants were under no obligation to provide full
copies of J.L.’s medical records in support of their
motion for summary judgment.” Opinion, at 26a.
Even finding Chen’s incompetency, the Court did not
appoint the mandatory GAL. Instead, it declined Mr.
Daugherty’s appearance, forcing J.L to pro se or
represented by a pro se parent.
When an adult chose to proceed without
counsel, he assumes the risk. Graham-Humphresys
v. Memphis Brooks Museum of Art, Inc., 209 F.3d
552, 561 (6th Cir. 2000).
7 The Complaint was filed on October 24, 2016. Halamay
filed summary judgment on December 8, 2016 - granted
on May 11, 2017, four months before the discovery cutoff.

23
However, minors are not bound to their parents’
pro se actions in such instances. Jurisdictions across
the country had chosen to enter a dismissal without
prejudice, “thereby giving [minors] further
opportunity to secure an attorney at some later time
within the limitations period... [minor] should not be
prejudiced by his father’s failure to comply with the
court order.” Johns u. County of San Diego. The
Second Circuit explained:
The choice to appear pro se is not a true
choice for minors who under state
law... cannot determine their own legal
actions. There is thus no individual choice to
proceed pro se for courts to respect...goes
without saying that it is not the interest of
minors or incompetents that they be
represented by non-attorneys. Were they
have claims that require adjudication, they
are entitled to trained legal assistance so
their rights may be fully protected.
Chueng, 906 F.2d at 61 (remanding to district court
so it could either appoint counsel or dismiss the
complaint without prejudice); See also Johns v.
County of San Diego, 114 F.3d 874(9th Cir. 1997)
(directing the district court to change dismissal with
prejudice to without prejudice; “because the goal is
to protect the rights of infants, the complaints should
not have been dismissed with prejudice as to
minor”). The Courts agreed that “[t]he infant is
always the ward of every court wherein his rights or
property are brought into jeopardy, and is entitled to
the most jealous care that no injustice be done to
him.” Osei-Afriyie u. Medical College of Pennsylvania,
937 F.2d 876, 883 (3rd Cir. 1991).

24
Under Sixth Amendment, J.L. has a
constitutional right to legal counsel, and of course he
could elect to proceed pro se “voluntarily and
intelligently”. See Faretta v. California, 422 U.S.
806 (1975). No such findings had ever entered. It is
against the law to require a mentally disabled minor
to pro se. See Godinez v. Moran, 509 U.S. 389, 403
(1993) (The courts should decline self-representation
when the state of litigant’s competency is called into
question).
Washington Courts’ Decision creates a
significant departure for improperly ordering a
minor to proceed pro se, or represented by an
incompetent guardian who has no legal training and
speaks English as her second language. It is against
the law for Washington courts - within the same
court - to order pro se parents to act on their minor
children’s behalf. This is of particular concern when
a pro se parent is pleading for assistance by
requesting appointment of guardian ad litem, and
counsel.
The federal courts chose to dismiss the minors’
claims without prejudice and did not permit pro se
parent representation. This Court should accept for
review and reverse under Supremacy Clause, e.g.,
Cipollone v. Liggett Group, Inc., 505 U.S. 504 (1992).
See SUP. CT. R. 10 (b).
The Washington Court opined that RCW
4.08.050 provides pro se parents to represent their
minor children in court. Opinion, at 23a. Whether a
state law could effectively prevent minor from

25
having legal counsel is a constitutional 8 question for
this Court to decide.
B. Absent Notice About Time Constraint and
Legal Consequence, Washington Courts’
Dismissal With Prejudice Against A Disabled
Minor Is A Due Process Violation Under This
Court’s Decision In Rabe v. Washington.
RCW 4.08.050 was enacted by Washington
legislature in 1891, remaining almost unchanged for
over one century. The statue reads, in pertinent part:
when an infant is a party he or she shall
appear by guardian, or if he or she has no
guardian, or in the opinion of the court the
guardian is an improper person, the court
shall appoint one to act. Said guardian shall
be appointed as follows:
(1) When the infant is plaintiff, upon the
application of the infant, if he or she be
of the age of fourteen years, or if under
that age, upon the application of a
relative or friend of the infant.
(2) When the infant is defendant, upon the
application of the infant, if he or she be
of the age of fourteen years, and applies
within thirty days after the service of the
summons; if he or she be under the age
of fourteen, or neglects to apply, then
upon the application of any other party
8 If RCW 4.08.050 deprives constitutional minor’s
rights to counsel as alleged, the Washinton Court
was obliged to declare it as unconstitutional. It did
not do so.

26
to the action, or of a relative or friend of
the infant.
See App. G. at 198 a
The
Washington
court
conceded
the
appointment of guardian ad litem is “mandatory”
that “RCW 4.08.050(1) provides that a trial court
must appoint a guardian ad litem for children under
14 years of age” (emphasis added), See 23a. It,
however, argued that the court was not under the
duty to sua sponte appoint the guardian ad litem
until the application was made by the “relative or
friend of the infant.” Id. But the plain language in
the statue seemingly suggests the initial duty was
upon the Court - only after the court made the initial
inquiry does the burden shift to request the
appointment. Specifically, “[after] in the opinion of
the court the guardian is an improper person, the
court shall appoint one to act. ” If a statute remains
ambiguous after a plain meaning analysis, it is
appropriate to refer to case law. Shelly v. Elfstrom,
13 Wn. App. 887, 538 P.2d 149 (1975) (it was “the
duty of the court to determine either that [party] was
competent or that a guardian ad litem was
required”). The interpretation found support under
the cannon interpretation in pari materia. Even if
ambiguity of the statute arguably exists, it should be
resolved “in favor of lenity”, e.g., Rewis u. United
States, 401 U.S. 808, 812 (1971).
As supported by court records, Chen did
request the appointment of guardian ad litem, in
Petitioners’ Motion for reconsideration on May 19,
2017. The Court of Appeals claimed the request as
untimely because it was not made “before the court
entered an order granting summary judgment

27
[which was entered seven days earlier].” App B, at
23a.Timing requirement, however, had been
intentionally omitted by the legislature in RCW
4.08.050 (1) when infant is the “plaintiff’. When
Legislature imposed “thirty days” time limit in RCW
4.08.050 (2) when infant is the “defendant” - they
could but have deliberately chosen not to do so for
minor plaintiffs under expressio unius est exclusio
alterius.
RCW 4.08.050 was enacted to protect the minor
children’s interests. It is the legislative intent, as
interpreted as the court, to place the initial burden
upon 14-year-old minors or “friends or relative of
infant” under 14 years old. In the 1992 c 111 findings,
legislature specially expressed its concerns over the
affected party’s “limited English proficiency”. See
199a.
Although no language in RCW 4.08.050 (1)
imposes deadline for requesting appointment of
guardian ad litem, the Washington Court, however,
insisted that Chen should have made the request
“before” an order granting summary judgment was
entered, see App B at 23a. This judicial addition
altered existing law and was an improper
encroachment on the legislative power and statute
as written, which was intended to protect the
interests of children. Even if accepted, the Opinion
itself was a Due Process violation for failing to
provide an adequate notice to the affected parties,
here, J.L. and Chen.
The dismissal with prejudice was fundamentally
unconstitutional because neither Chen nor J.L. ever
had notice that a failure to request appointment of
guardian ad litem could result in a dismissal with

28
prejudice, which was not included in RCW 4.08.050.
See Rabe v. Washington, 405 U.S. 313 (1972) (per
curiam). Noting that neither context nor location
were part of the crime Rabe supposedly committed:
“[Rabe’s] conviction was thus affirmed under a
statute with a meaning quite different from the one
he was charged with violating”, this Court reversed
because Rabe had no notice that showing the same
film in an indoor theater was permissible but that
showing it in a drive-in was not. As pointed out by
Judge Diane Wood from the Court of Appeals,
“[NJeither laws nor the procedures used to
create or implement them should be secret;
and...the laws must not be arbitrary.”
Wood, Diane, The Rule of Law in Times of Stress
(2003).
Applying here, Chen and J.L. should have been
(but were not) made aware of the potential legal
consequence, e.g., dismissal with prejudice and been
given opportunity to avoid the consequence. Absent
adequate notice, Washington courts’ dismissal with
prejudice was a violation of J.L.’s Due Process Rights.
C. Minor, J.L. Has Been Deprived of Individual
Rights
Which Structural Separation of
Powers Principles Are Designed to Safeguard.
“The structural principles secured by the
separation of powers protect the individual as well.”
Bond v. United States, 564 U.S. 211, 222 (2011).
Justice Scalia announces that it is a “bedrock
principle that ‘the constitutional structure of our
government’ is designed first and foremost not to
look after the interests of the respective branches,

29
but to ‘protec[t] individual liberty.”) NLRB v. Noel
Canning, 134 S. Ct. 2550 (2014) (Scalia, J., joined by
Thomas and Alito, concurring in judgment). “Liberty
is always at stake when one or more of the branches
seek to transgress the separation of powers.” Clinton
v. City of New York, 524 U.S. 417, 450 (1998)
(Kenndy, J., concurring).
The threat to individual rights is particularly
acute when the Court neglects the restraints of the
judicial role. The question here is who should make
the laws, or more exactly, who should decide how the
laws should be. In a case of Smith v. Jones, whether
or not “Smith wins” should be decided according to
the original laws, not the judicially amended rule.
Having experienced and rejected “a system of
intermingled legislative and judicial powers,” Plaut,
514 U.S., at 219, the Framers recognized - as has
this Court - that “there is no liberty if the power of
judging be not separated from the legislative and
executive powers.” The Federalist No. 78 (Hamilton,
quoting, 1 Montesquieu, Spirit of Laws 181); Stern,
564 U.S., at 483.
Here, RCW 4.08.050 (1) does not require
application for appointment of a guardian ad litem
to occur before entry of order on motion for summary
judgment. Whether or not a time constraint should
be added for a minor plaintiff, and whether the
failure to request the appointment should be
sanctioned by dismissal with prejudice, “the decision
should rest with the people acting through their
elected representatives,” Obergefell v. Hodges, 576
U.S. 644 (2015) (Roberts, J., joined by Scalia and
Thomas, dissenting). In deciding cases based on a
judicially amended statute, the Washington courts

30
stripped the minor, J.L. of his individual right to
have his case adjudicated by an impartial tribunal,
free of personal preference.
The decision deprived J.L. and Chen of their
rights to “notice” required by Due Process Clause of
the Fourteen Amendment. They were not told by
anyone or the court that request for the appointment
must occur before a motion for summary judgment
(which was brought one month following
commencement of litigation), nor were they made
aware that a dismissal with prejudice could be
imposed if the application was not made before a
specific date. Absent notices to the affected parties,
the order granting dismissal with prejudice violates
Petitioners’ fundamental due process rights, e.g.,
Mullane v. Central Hanover Bank & Trust Co., 339
U.S. 306, 313 (1950).
Washington courts’ decision deprives J.L. of his
rights to “meaningful” access the courts. Bounds v.
Smith, 430 U.S. 817 (1977). Here, J.L. was denied
the minimal access by this pre-discovery dismissal
without representation.
In sum, the Decisions violates minor, J.L.’s
rights to counsel, access the courts, and equal
protection under U.S. Constitution.
Americans are proud of having “a government
of laws and not of men” - which was originally from
the Massachusetts Constitution of 1780, in full as
below:
In the government of this Commonwealth,
the legislative department shall never
exercise the executive and judicial powers, or

31
either of them: The executive shall never
exercise the legislative and judicial powers,
or either of them: The judicial shall never
exercise the legislative and executive powers,
or either of them: to the end it may be a
government of laws and not of men.
Citing Morrison u. Olson, 487 U.S. 654 (1988)
(Scalia, J., dissenting)
The Washington courts erred in converting
personal preference into laws by entering a dismissal
with prejudice against minor, J.L. To avoid repeating
such errors, our modern substantive due process
cases have stressed the need for "judicial selfrestraint." Collins v. Harker Heights, 503 U. . 115,
125 (1992). It "is the obligation of the Judiciary ...to
confine itself to its proper role," City of Arlington v.
FCC, 133 S.Ct. 1863 (2013) (Roberts, C.J.,
dissenting). The Washington Courts’ decisions
should be reversed - it was unconstitutional and has
violated a disabled minor’s most fundamental
constitutional rights of the access to the courts.
CONCLUSION
The petition for writ of certiorari should be
granted.
Respectfully submitted,
/s/ Susan Chen
Susan Chen, pro se Petitioner
PO BOX 134, Redmond, WA 98073
March 29, 2021.
Resubmitted per this Court’s letter directive
dated on April 15, 2021.

